Supreme Court, U.S.
FILED

MAY 1 1 2021

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

WEI-PING ZENG
Petitioner,
v.

TEXAS TECH UNIVERSITY HEALTH SCIENCE CENTER AT EL PASO; PETER
ROTWEIN; RICHARD LANGE; BEVERLEY COURT; REBECCA SALCIDO,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals, Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

WEI-PING ZENG
3128 Ferguson Road
Huntington, WV 25705
Telephone: (304) 942 8606
Email: weipingzengny@gmail.com
PRO SE PETITIONER

ii

(a) QUESTIONS PRESENTED FOR REVIEW
1.

Whether the Court should resolve the following question for which the
circuit courts of appeals are split: for his/her claim of wrongful termination
for alleged violation of employer’s policy to survive summary judgment
motion, whether a plaintiff has to name similarly situated employee(s) who
had nearly identical job responsibilities, shared the same supervisor, and
committed nearly identical policy violations, or present “circumstantial
evidence that creates a triable issue concerning the employer’s discriminatory
intent”.

2.

Whether

Respondents

violated

Petitioner’s

due

process

right

guaranteed by the Fourteenth Amendment by disregarding employer’s own
policy to label Petitioner as “not eligible for rehire” due to misconduct
“demonstrating unfitness for employment”, for which the circuit courts of
appeals are split in terms of how to define a stigma that infringes liberty
interest and what constitutes the publication of the stigma.

iii

(b) LISTS OF ALL PARTIES AND PROCEEDINGS
Parties involved
The caption of the case contains the names of all parties. Respondents were
represented by counsel Rola Daaboul.
Proceedings
Wei-ping Zeng v. Texas Tech University Health Science Center at El Paso;
Peter Rotwein; Richard A. Lange; Beverley Court; Rebecca Salcido, No. 20-50210
(5th Cir. December 15, 2020)
Wei-ping Zeng v. Texas Tech University Health Science Center at El Paso;
Peter Rotwein; Richard A. Lange; Beverley Court; Rebecca Salcido, No. 20-50210
(5th Cir. November 9, 2020)
Wei-ping Zeng v. Texas Tech University Health Science Center at El Paso;
Peter Rotwein; Richard A. Lange; Beverley Court; Rebecca Salcido, No. 3:19-cv00099-KC (TXW_USDC, March 4, 2020).

iv
(c) TABLES OF CONTENTS AND AUTHORITIES
TABLE OF CONTENTS
(a) QUESTIONS PRESENTED FOR REVIEW

11

(b) LISTS OF ALL PARTIES AND PROCEEDINGS

111

(c) TABLES OF CONTENTS AND AUTHORITIES

iv

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

vi

(d) CITATION TO OPINION BELOW

Vlll

(e) BASIS FOR JURISDICTION

Vlll

(f) STATUTES AND CONSTITUTIONAL PROVISIONS INVOLVED

Vlll

(g) STATEMENT OF THE CASE

1

Factual background

1

Federal jurisdiction in the court of first instance

6

Judicial history

6

(h) REASONS FOR ALLOWANCE OF THE WRIT
1.

Whether the Court should resolve the following question
for which the circuit courts of appeals are split: for his/her
claim of wrongful termination for alleged violation of
employer’s policy to survive summary judgment motion,
whether a plaintiff has to name similarly situated
employee(s) who had nearly identical job responsibilities,
shared the same supervisor, and committed nearly
identical policy violations, or present “circumstantial
evidence that creates a triable issue concerning the
employer’s discriminatory intent”..............................................

7

7

V

2.

Whether Respondents violated Petitioner’s due process
right guaranteed by the Fourteenth Amendment by
disregarding employer’s own policy to label Petitioner as
“not eligible for rehire” (NEFR) due to misconduct
“demonstrating unfitness for employment”, for which the
circuit courts of appeals are split in terms of how to define
a stigma that infringes liberty interest and what
constitutes the publication of the stigma.................................

CONCLUSTION

16

(1) Stigma that infringes liberty interest

16

(2) Publication

20
24

vi
TABLE OF AUTHORITIES

Cases
Ajayi v. Aramark Business Services, Inc., 336 F. 3d 520 (7th Cir. 2003)

8

Bollow v. Federal Reserve Bank of San Francisco, 650 F. 2d 1093, 1101
(9th Cir. 1981)........................................................................................................

17

Burton v. Town of Littleton, 426 F. 3d 9, 17, n9 (1st Cir. 2005)

21

Doe v. Purdue University, 928 F. 3d 652, 662 (7th Cir. 2019)

22, 23

Donato v. Plainview-Old Bethpage Cent. School Dist., 96 F. 3d 623
(2nd Cir. 1996)...............................................................................................

17, 21

Garcia v. Bd. of Ed. of Socorro Consol. Sch. Dist., Ill F. 2d 1403, 1418, n6
(10th Cir. 1985)............................................................................................................
Garcia v. Prof’l Contract Servs., Inc., 938 F.3d 236, 244 (5th Cir. 2019)

22
8

Haynes v. Home Depot USA, Inc., Nos. 16-55698, 16-55922 (9th Cir. 2020)

10

Lee v. Kansas City Southern Ry. Co., 574 F. 3d 253, 261 (5th Cir. 2009)

12

McDonnell Douglas Corp. v. Green, 411 U.S. 792, 804 (S. Ct. 1973)
Olivieri v. Rodriguez, 122 F.3d 406 (7th Cir. 1997)
Ortiz v. Hershey Co. 580 F. Appx 352 (6th Cir. Ct. 2014)
Paul v. Davis, 424 US 693, 712 (S. Ct. 1976)
Perez v. Thorntons, Inc. 731 F.3d 699, 703 (7th Cir. 2013)
Raymond v. Ameritech Corp., 442 F.3d 600, 610 (7th Cir. 2006)

7, 8,9
21
8
16, 20
11
7

Reeves v. Sanderson Plumbing Prods, Inc., 530 US 133 (S. Ct. 2000)

19

Sciolino v. City of Newport News, Va., 480 F. 3d 642, 649-50 (4th Cir. 2007)

21

vii
Simmons u. Uintah Health Care, 506 F.3d 1281 (10th Cir. 2007)

9

Smith v. Lockheed Martin Corp., 644 F. 3d 1321, 1328 (11th Cir. 2011)

10

Stretten v. Wadsworth Veterans Hospital, 537 F. 2d 361, 366 (9th Cir. 1976)

17

Townsend v. Valias, 256 F. 3d 661, 669 (7th Cir. 2001)

17

Turner v. Texas Instruments, Inc., 555 F. 2d 1251, (5th Cir. 1977)

13

West v. City of Hous., 960 F.3d 736, 740 (5th Cir. 2020)

8

Statutes
28 USC § 1331

6

28 USC §1343

6

28 USC § 1367(a)

6

42 USC § 1981(a)

vm

42 USC §1983

vm

42 USC §2000e-2(a)

vm

Constitutional provision
14th Amendment to U.S. Constitution, Section 1

xi

viii
(d) CITATION TO OPINION BELOW
The Fifth Circuit Court’s opinion is not published.
(e) BASIS FOR JURISDICTION
The 5th Circuit Court entered orders denying Petitioner’s appeal on Nov 9,
2020, and denying en banc rehearing on Dec 15, 2020. This Court has jurisdiction to
review the 5th Circuit Court’s final judgment under 28 U.S.C. §1254.
(f) STATUTES AND CONSTITUTIONAL PROVISIONS INVOLVED
42 USC § 1981(a). “All persons within the jurisdiction of the
United States shall have the same right in every State and Territory to
make and enforce contracts, to sue, be parties, give evidence, and to
the full and equal benefit of all laws and proceedings for the security of
persons and property as is enjoyed by white citizens, and shall be
subject to like punishment, pains, penalties, taxes, licenses, and
exactions of every kind, and to no other”.
42 USC §1983. “Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or Territory or
the District of Columbia, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction thereof to
the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action
at law, suit in equity, or other proper proceeding for redress, except
that in any action brought against a judicial officer for an act or
omission taken in such officer's judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was violated or declaratory
relief was unavailable. For the purposes of this section, any Act of
Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia”.
42 USC §2000e-2(a). “It shall be an unlawful employment
practice for an employer(1) to fail or refuse to hire or to discharge any individual, or
otherwise to discriminate against any individual with respect to his
compensation, terms, conditions, or privileges of employment, because
of such individual's race, color, religion, sex, or national origin; or
(2) to limit, segregate, or classify his employees or applicants for
employment in any way which would deprive or tend to deprive any

ix

individual of employment opportunities or otherwise adversely affect
his status as an employee, because of such individual's race, color,
religion, sex, or national origin”.
14th Amendment to U.S. Constitution, Section 1. “All persons
born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they
reside. No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any
state deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws”

1
(g) STATEMENT OF THE CASE
Factual background
Petitioner, an Immunologist known for his discovery of GATA-3 as the
master regulator of allergy and immunity against helminth infections, started
working at Dr. Wu’s lab at Texas Tech University Health Science Center at El Paso
(the university) on March 1, 2017. The work tasks assigned to Petitioner by Dr. Wu
included writing NIH grant applications, research progress reports, animal study
protocols and manuscript reviews for research projects on Zika, HIV, EV71 and
influenza viruses. (A26-7). For these tasks, Petitioner’s work was mostly reading
and writing. However, as a staff member Petitioner did not have an office at the
university, therefore was subject to distractions by the constant noises in the lab.
As such, Petitioner believed he could work more effectively at his permanent home
in West Virginia. Mainly for this reason, and to lesser degree some legal matters in
W. Va., Petitioner asked Dr. Wu if he could work from his W. Va. home. Dr. Wu
approved this request. (A26).
The university policy OP70.06 provided that employee had to receive the
university president’s approval to work from home. However, as part of the hiring
process, Petitioner signed the Employee Acknowledgement form and the New
Employee Document Receipt. These two documents listed a number of university
policies, but OP70.06 was not listed on either document. Therefore, at the time he

2

requested to work from home, Petitioner was unaware of this policy, neither was
Dr. Wu. (A35, 43-4).
From early May to early December 2017, Petitioner mainly worked from
home, but was back to the university several times for work-related reasons, and
successfully completed his work assignments. For most of December 2017,
Petitioner worked at the university. (A27-8).
On Jan 9, 2018, Petitioner received an email from his department’s chair
Rotwein, stating that the department found that Petitioner claimed 119 workdays
without electronic records of swipe card access to the university building from May
to Dec 2017.

In his email, Rotwein expressed his concern whether Petitioner

actually worked, and requested that Petitioner provide him documentations of
Petitioner’s “scientific activities” for Dr. Wu’s research. On Jan 11, 2018, Petitioner
sent Rotwein the summary and PDFs of his work products by email. (A28).
Rotwein’s Jan 9 email was the first departmental communication that
Petitioner received regarding the discrepancies between employees’ claimed
workdays and swipe card usages. Prior to Rotwein’s email, on December 18, 2017
the department’s senior director Ms. Court sent Petitioner a meeting request by
email. However, Ms. Court did not mention anything about the discrepancies or
policy violation in her email.

Appellant initially missed the email because he was

working at the university and did not expect that his colleagues needed to
communicate with him by email. When Appellant saw the email later, he went to
see Ms. Court but was told she had been gone for her Christmas break.

(A28).

3

From Jan 8 to early Jan 9, Ms. Court and Petitioner had a number of email
communications about Petitioner’s December timesheet entries, during which Ms.
Court made anther meeting request, again did not mention anything about the
discrepancies or policy violation. At that time, Petitioner was not in El Paso, but
replied to the email, telling Ms. Court he would be back as soon as possible, and
would meet with her once back if she still needed to meet. (A39).
Rotwein also contacted Dr. Wu. On Jan 7, 2018, Dr. Wu told Rotwein that he
approved Petitioner’s working from home, and praised Petitioner as “an excellent
researcher” and having “worked diligently” for his research. (A29).
same time, Dr. Wu also discussed the situation with Petitioner.

Around the
Petitioner

expressed skepticism to Dr. Wu about the accuracy of the number of Petitioner’s
claimed workdays without swipe card usage. Petitioner believed it should be 103
instead of 119 days.

(A29).

To his recollection, Petitioner also conveyed this

skepticism to Rotwein or other administrator(s) by emails. (A63)1. Dr. Wu advised
Petitioner to return to El Paso. Petitioner agreed and informed Rotwein that he
would follow Dr. Wu’s advice. (A29).
After the discussion with Dr. Wu and receiving Rotwein’s Jan 9 email,
Petitioner started preparing to return to El Paso by renting out his W. Va. home.
On Jan 26, 2018, Appellant was back in El Paso, and found an apartment there for
long-term lease. However, on Jan 29 Petitioner received an email from Ms. Court,

1 The emails could not be produced because Respondents deleted Petitioner’s email
account.

4
informing him that his employment had been terminated effective Jan 22, 2018.
The formal termination form described the reason for the termination as
“Misconduct”. Prior to Jan 29, Petitioner received no warning or any indication of
the pending termination. (A29-30).
On Jan 31, 2018, Petitioner wrote to Rotwein, and later to president Lange
expressing his worries about the adverse effect of the termination for misconduct on
his career and urging them to reconsider the termination decision, but received no
reply. Petitioner also wrote to Lange and the Human Resources Division (HR) to
inquire about filing formal complaint, but HR told him that he was not permitted to
file complaint. (A59).
After left the university, Petitioner applied for numerous positions but didn’t
even received any invitation for interview.

Petitioner then hired the reference

check company Allison & Taylor (A&T) to specifically find out whether the
university might tell prospective employers that Petitioner was fired for
misconduct.

(A53,

89).

A&T

appeared

in

turn

to

have

hired

CredentialVerificationService.com, which sent a reference check form to the HR
head Salcido. Salcido forwarded the form to the departmental director Ms. Court.
Ms. Court, with permission from Rotwein answered “yes” to the question on the
form whether Petitioner was “not eligible for rehire” (NEFR). Ms. Court testified
that she did not know that the reference check was ordered by Petitioner. (A53).
A&T sent the reference check report to Petitioner, and recommended
Petitioner to send a “Cease & Desist” request regarding the NEFR statement to the

5
university.

Petitioner sent the request to Rotwein, Ms. Court and Salcido, but

received no reply. (A53). Prior to the reference check report, Petitioner had never
received any notice of NEFR. The university had a strict policy and procedure for
designating an employee as NEFR, and the NEFR designation had to be sent to the
designated employee by the HR. Salcido, the HR head, testified that Petitioner had
never been designated as NEFR. (A56).
In addition to Petitioner, the department found many other employees who
also claimed workdays without swipe card usage. One of them was Montoya, a selfdescribed White and Native American, who like Petitioner was a research staff
member.

After initially found to have wrongfully claimed workdays, Montoya

received a performance coaching. However, she continued the same violation with
high frequency.

On the records produced in this case, she accumulated 105

workdays without swipe card usage, but might have claimed additional 29 such
days for a period that Respondents refused to provide records. Montoya received a
formal “Notice of Corrective Action” as the final disciplinary action. (A36-7).
President Lange was the final decision maker of employment termination by
the university. Under his presidency, the university fired 13 other employees, all of
who had repeated policy violations and received multiple opportunities and
assistance to correct their behaviors prior to their termination. (A80-4). There were
also numerous employees who committed serious policy violations and received
multiple disciplinary actions but were not fired. (A85-8, 64-79). Petitioner was the
only employee who was fired without an opportunity to improve.

6
Federal jurisdiction in the court of first instance
The U.S. District Court for the Western District of Texas in El Paso has
jurisdiction over this case pursuant to 28 USC § 1331 as this case involves federal
questions, and the district court has jurisdiction over all civil actions arising under
the Constitution, laws, and treaties of the United States. The district court has
jurisdiction over this case pursuant to 28 USC §1343, which gives the district courts
original jurisdiction of any civil action authorized by law to be commenced by any
person. The district court has supplemental jurisdiction over this case on claims
arising under state laws pursuant to 28 USC §1367(a).
Judicial history
Petitioner

filed

the

original

complaint

with

claims

of employment

discrimination based on race and national origin and due process violation, and tort
claims of defamation and tortious interference in the 243rd District Court of El Paso
County, Texas on March 18, 2019. On March 27, 2019, Defendants removed the case
to the U.S. District Court for the Western District of Texas in El Paso. On March 4,
2020, the district court entered order and judgment granting Respondents motion
for summary judgment on all claims. (A25-6)
On March 16, 2020, Petitioner appealed from the district court’s decision to
the U.S. Court of Appeals, 5th Circuit.

On November 9, 2020, the 5th Cir. Ct.

entered order affirming the district court’s decision. (Al-20). Petitioner filed petition
for en banc rehearing. On December 15, 2020, the 5th Cir. Ct. entered order denying
en banc rehearing, from which Petitioner now appeals. (A21).

7

(h) REASONS FOR ALLOWANCE OF THE WRIT
Whether the Court should resolve the following question for
1.
which the circuit courts of appeals are split: for his/her claim of wrongful
termination for alleged violation of employer’s policy to survive summary
judgment motion, whether a plaintiff has to name similarly situated
employee(s) who had nearly identical job responsibilities, shared the same
supervisor, and committed nearly identical policy violations, or present
“circumstantial evidence that creates a triable issue concerning the
employer’s discriminatory intent”.
Under current laws, a plaintiff could prove his/her claim of unlawful
discrimination by either direct or indirect method. Direct evidence would require
something akin to an admission of unlawful discrimination by the defendant.
Raymond v. Ameritech Corp., 442 F.3d 600, 610 (7th Cir. 2006). In this day and age
such evidence is rare. Therefore, the indirect method is the predominant method of
proof of employment discrimination.
Pertaining to the method of indirect proof of unlawful employment
discrimination, in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 804 (S. Ct.
1973), the Court held:
“On remand, respondent must, as the Court of Appeals recognized, be
afforded a fair opportunity to show that petitioner's stated reason for
respondent's rejection was in fact pretext. Especially relevant to such a
showing would be evidence that white employees involved in acts
against petitioner of comparable seriousness to the "stall-in" were
nevertheless retained or rehired. Petitioner may justifiably refuse to
rehire one who was engaged in unlawful, disruptive acts against it, but
only if this criterion is applied alike to members of all races.” Id.
Since then, the circuit courts of appeals have adopted the McDonnell Douglas
burden-shift framework or the “four-prong test” for analyzing employment

8
discrimination claims. In West v. City of Hous., 960 F.3d 736, 740 (5th Cir. 2020),
the 5th Cir. Ct. described the four-prong test:
“(The plaintiff) must show that she (1) belongs to "a protected class";
(2) "was qualified for the position"; (3) experienced "an adverse
employment action"; and (4) was "similarly situated" to other
employees who were not members of her protected class and who "were
treated more favorably."” Id., (internal citation omitted).
The 5th Cir. Ct. further set forth the criteria for determining “similarly situated”:
“We have defined "similarly situated" narrowly, requiring the
employees' situations to be "nearly identical." Employees are similarly
situated when they (1) "held the same (emphasis added) job or
responsibilities," (2) "shared the same (emphasis added) supervisor or
had their employment status determined by the same person," and (3)
"have essentially comparable violation histories."” Id. (internal
citations omitted). “[T]he conduct the employer points to as the reason
for the firing must have been ‘nearly identical’ to ‘that of the proffered
comparator who allegedly drew dissimilar employment decisions.’”
Garcia u. Prof’l Contract Servs., Inc., 938 F.3d 236, 244 (5th Cir. 2019).
In addition to the 5th Cir. Ct., other circuit courts have adopted similar analytical
frameworks. Ajayi v. Aramark Business Services, Inc., 336 F. 3d 520 (7th Cir. 2003);
Ortiz v. Hershey Co. 580 F. Appx 352 (6th Cir. Ct. 2014).
However, these stringent standards have significantly deviated from the
Court’s original holding in McDonell, supra, which did not require the plaintiff to
show that the comparators had the same or similar job responsibilities as the
plaintiff, or committed offenses same as or similar to the “stall in”, but rather the
plaintiff only need to show that the other offenses are of “comparable seriousness”
to the “stall in”. Id.

9
The stringent standards for qualifying a comparator as “similarly situated”
could be problematic in cases that concern disparate treatments/punishments for
violating employer’s policies.

For example, hypothetically two employees, an

accountant and an engineer, violated their company’s policies. The account stole a
million dollars from the company, but only received a letter of reprimand. Whereas,
the engineer with his supervisor’s permission worked at home for a few months, and
designed a number of successful new products for the company, but was fired
because he did not have the company’s president’s permission to work from home
even though he did not know that he needed the president’s permission. Under the
stringent standards, the accountant would not be “similarly situated” to the
engineer because they have different job responsibilities and supervisors and their
violations are dissimilar, so that the engineer would not have a case of
discrimination for disparate treatments.

No reasonable mind could believe that

such outcome was the federal or any state’s legislature’s intent when they enacted
the civil/human rights acts. As the Honorable Justice Gorsuch once wrote “[wjhile
the law is often subtle and sometimes complex, it is rarely so unreasonable”,
Simmons v. Uintah Health Care, 506 F.3d 1281 (10th Cir. 2007), the law should not
be so unreasonable in this hypothetical case either.
Moreover, even in cases where the stringent standards may be more
applicable, the lack of clear definition of “nearly identical” leaves too much room for
error of caprice. Such caveat undermines and often defeats the ultimate goal of the
civil rights acts to eliminate unlawful workplace discrimination.

10
Thus, it is not surprising that instead of requiring the identification of
“similarly situated” employees, a number of circuit courts have decided employment
discrimination cases based on whether plaintiff “presents circumstantial evidence
that creates a triable issue concerning the employer's discriminatory intent.” Smith
v. Lockheed Martin Corp., 644 F. 3d 1321, 1328 (11th Cir. 2011). The most recent
(to the Petitioner’s knowledge) such decision was from the 9th circuit court in
Haynes v. Home Depot USA, Inc., Nos. 16-55698, 16-55922 (9th Cir. 2020). Without
engaging in the identification of specific “similarly situated” but younger employees,
the 9th Cir. Ct. held that viewing the facts in the light most favorable to the
plaintiff, the plaintiff presented evidence to “allow a reasonable factfinder to
conclude

that the true reason (for the plaintiffs discharge) was (age)

discriminatory.” Id.
Some other circuit courts have taken the same approach. In Smith, supra,
the 11th circuit court, while acknowledging that plaintiff Mitten failed to provide
“similarly situated” employees based on the standard of “nearly identical job
responsibilities”, held:
“However, establishing the elements of the McDonnell Douglas
framework is not, and never was intended to be, the sine qua non for a
plaintiff to survive a summary judgment motion in an employment
discrimination case. Accordingly, the plaintiffs failure to produce a
comparator does not necessarily doom the plaintiffs case. Rather, the
plaintiff will always survive summary judgment if he presents
circumstantial evidence that creates a triable issue concerning the
employer's discriminatory intent.” Id.

11
Similarly, in a case of discharge for policy violation, the 7th circuit court declared
“that the time has come to jettison the "ossified direct/indirect paradigm" in favor of
a

simple

analysis

of whether

a

reasonable

jury

could

infer

prohibited

discrimination.” Perez u. Thorntons, Inc. 731 F.3d 699, 703 (7th Cir. 2013). There,
the 7th Cir. Ct. held that although the comparator provided by plaintiff Perez did
not fit the definition of “similarly situated” employee because of different job
responsibilities, it should be up to a jury to decide whether “she was fired because of
her gender or national origin”. Id., at 712.
In this case, Petitioner alleged that his discharge for alleged violation of the
university policy was motivated by discrimination based race and national origin.
The 5th Cir. Ct. affirmed the district court’s decision granting summary judgment to
the Respondents on the ground that there were no similarly situated employees,
hence no prima facie case under the McDonnell Douglas framework. (A8-11).
However, Petitioner offered multiple lines of evidence showing that he was
treated worse than any other policy violators who were outside his protected class.
The Petitioner’s discharge resulted from a departmental audit conducted at the end
of 2017 that found discrepancies between the workdays claimed by Petitioner and a
number of other employees and the electronic records of their swipe card usages.
Therefore, Petitioner first provided evidence to show that at least one of the other
employees,

Montoya,

received more

favorable

treatment even though the

seriousness of her violation was greater than, or at least comparable to, that of the
Petitioner’s.

12
For comparisons between Montoya and Petitioner, the following facts are
material.

Firstly, Respondents alleged Petitioner claimed 119 workdays without

swipe card usage, but Petitioner disputed this number and believed that he should
had only 103 such days if taken into consideration of the weekends and holidays he
worked at El Paso for the university but did not claim as workdays from May to Dec
2017, as well as days when his co-workers gave him ride to work so that he entered
the building without using his own swipe card.

(A29).

As for Montoya, on the

records produced in this case, she had 105 workdays without swipe card usage (83
days for 4/6/2016 - 10/15/2017, 22 days for March 2018 to June 15, 2018), but might
have additional 29 or more such days from the period of 10/16/17 to Feb 2018 for
which Respondents refused to provide records.

(A36). Although Respondents

alleged that Petitioner and Montoya violated different policies, the factual basis of
their violations is the same, i.e., claiming workdays without swipe card usage. This
is important because the similitude of employees’ violations may not be necessarily
determined by “how a company codes an infraction under its rules and regulations.”
Lee v. Kansas City Southern Ry. Co., 574 F. 3d 253, 261 (5th Cir. 2009). Despite
having similar or more number of wrongfully claimed workdays, Montoya only
received a formal “Notice of Corrective Action” as the final disciplinary action.
Secondly, the reason that Petitioner claimed workdays without swipe card
usage was because he worked from home.

However, he asked for and received

permission to do so from his supervisor Dr. Wu, and at the time neither he nor Dr.
Wu knew that they needed approval from the university president.

(A27).

13
Therefore, Petitioner’s violation was unintentional.

This fact is material

because the 5th Cir. Ct. has held that it is justifiable for employer to fire employees
who knowingly, but not those unknowingly, violated policy.

Turner v. Texas

Instruments, Inc., 555 F. 2d 1251, (5th Cir. 1977). Moreover, Petitioner promptly
took actions to correct his mistake by returning to work at the university and
making arrangements for long-term stay in El Paso. (A29).
In contrast, after initially found to have wrongfully claimed workdays,
Montoya received a performance coaching, in which she explained that she worked
in the lab in the evenings on the disputed days but her swipe card was not
programed for evening access. However, there was no documentary or testimonial
evidence from her supervisor that her supervisor even knew, let alone approved, her
working in the evenings. Further, after the performance coaching, she was granted
24/7 access on Feb 22, 2018, but afterwards continued to claim 22 workdays without
swipe card usage from Mar to June 15, 2018. (A36). Thus, her repeated violations
were not only undeniably intentional or “knowingly”, they would also raise doubt
in the minds of a jury about the truthfulness of her explanation for her earlier
violations.
Thirdly, Petitioner worked hard and effectively, and had excellent work
productivity.

He wrote 2 NIII grant applications, one of which was awarded

$420,750 for 2 years, 2 animal study protocols, 3 project progress reports, 1
manuscript review; he also passed a number of university mandated trainings,
helped other lab members with their research, and offered 2 lectures to a graduate

14
course. (A91). In contrast, there was no evidence of Montoya’s work productivity
or that Montoya actually worked on her wrongfully claimed workdays except
Respondent Ms. Court’s affidavit stating that Montoya’s supervisor told Ms. Court
that Montoya did research. Ms. Court’s statement in her affidavit however was
merely hearsay. (A36-7).
Finally, Petitioner provided evidence for which a reasonable jury would
conclude that he fully cooperated with Respondents in the investigation of his
alleged policy violation. Respondents claimed that they made several requests for
Petitioner to cooperate in the investigation.

These requests included 2 meeting

requests by email from Ms. Court dated Dec 18, 2017 and Jan 8, 2018, and
Rotwein’s Jan 9 email. (A28, 90). However, Ms. Court’s meeting requests did not
mention the audit or policy violation, therefore could not be considered as requests
for the investigation thereof. Nonetheless, Petitioner responded to both. Petitioner
initially missed Ms. Court’s Dec 18 request because he did not check his work
emails thinking that while he was working at the university, his colleagues would
not need to communicate with him by email. When he did see the email, he went to
meet with Ms. Court but only to find out that she had gone for her Christmas break.
For Ms. Court’s Jan 8 email, Petitioner replied that he was not in El Paso at the
time but would return as soon as possible, and once back would meet with her if she
still wanted to. However, on the next day Jan 9 chair Rotwein sent Petitioner an
email to request that Petitioner provide him documentation of “scientific activities”

15
that Petitioner had done for Dr. Wu’s research2. Petitioner promptly responded
by providing Rotwein not only a summary but also the actual PDFs of Petitioner’s
work products. (A28, 90-1).
Petitioner

also

provided evidence

to

show

that

his

discharge

was

unreasonably harsh compared with the disciplinary actions received by two groups
of other employees. One group of employees had repeated and serious violations but
were not fired.

Their violations included violations of policies for HIPA privacy,

policies against sexual harassment (OP51.03) and failure to perform (OP70.31).
(A85-8, 64-79). These policies are arguably more important than the policy
(OP70.06) (working from home) that Petitioner was accused of violating because
their violations directly jeopardizes the core missions (patient care, teaching and
research) and personnel security of the university, and indeed they were specifically
emphasized in the Employee Acknowledgement form whereas OP70.06 was not.
(A43-4).
The other group consists of all the employees other than Petitioner (13 of
them) who were discharged by president Lange.

Their violations must be

comparably serious to that of the Petitioner’s in the eyes of the Respondents
because they too warranted discharge. However, unlike the Petitioner, all those 13
other employees were offered multiple opportunities and assistance to correct their

2 Rotwein requested that Petitioner provide him documentation of Petitioner’s
“scientific activities” with “specifics” of “primary data that you analyzed, and/or the
primary research papers or grant applications that you wrote or edited, or any other
related activities, such as developing a new research plan”. (A28).

16
behaviors before being discharged.

(A80-4). In,contrast, Petitioner took solid

actions to correct his mistake by renting out his home in West Virginia, returning to
El Paso and finding an apartment there for long-term lease, but was cruelly denied
such an opportunity to improve. Not only so, he was also fired without any warning
or a chance to argue for himself. (A42-3).
Taken together, these lines of evidence, if not have already proven unlawful
discrimination, have at least created a triable issue concerning the Respondents’
discriminatory intent.

2. Whether Respondents violated Petitioner’s due process right
guaranteed by the Fourteenth Amendment by disregarding employer’s
own policy to label Petitioner as “not eligible for rehire” (NEFR) due to
misconduct “demonstrating unfitness for employment”, for which the
circuit courts of appeals are split in terms of how to define a stigma that
infringes liberty interest and what constitutes the publication of the
stigma.
(1) Stigma that infringes liberty interest
With regard to due process for the deprivation of liberty interest, the Court
has previously held:
“as a result of the state action complained of, a right or status
previously recognized by state law was distinctly altered or
extinguished. It was this alteration, officially removing the interest
from the recognition and protection previously afforded by the State,
which we found sufficient to invoke the procedural guarantees
contained in the Due Process Clause of the Fourteenth Amendment.”
Paul v. Davis, 424 US 693, 712 (S. Ct. 1976).
Although this holding have been the legal authority for circuit courts of appeals in
deciding cases concerning due process protection from deprivation of liberty interest

17
in future employment, the circuit courts are nonetheless divided on how to define
a stigma that infringes liberty interest.

Some circuit courts emphasize “moral

turpitude” of a charge to be stigmatizing enough to implicate liberty interest, but
generally do not consider charges of professional incompetence as infringement of
liberty. “[A] stigma of moral turpitude, which infringes the liberty interest, and a
charge of incompetence or inability to get along with coworkers which does not.”
Stretten v. Wadsworth Veterans Hospital, 537 F. 2d 361, 366 (9th Cir. 1976); Bollow
v. Federal Reserve Bank of San Francisco, 650 F. 2d 1093, 1101 (9th Cir. 1981).
Statement that an employee “should not be rehired

due to “failure to perform

duties”” does not infringe on the employee’s liberty. Townsend v. Valias, 256 F. 3d
661, 669 (7th Cir. 2001).
In contrast, other circuit courts have decided cases on grounds of charges of
professional incompetence.

For example, in Donato v. Plainview-Old Bethpage

Cent. School Dist., 96 F. 3d 623 (2nd Cir. 1996), the 2nd Cir. Ct. held “stigmatizing
allegations (of deprivation of liberty) also include charges going to professional
competence when the charges are sufficiently serious.” Id., at 632.
In this case, Petitioner claimed that Respondents violated his liberty interest
by labeling him as “not eligible for rehire” (NEFR). The 5th Cir. Ct. denied this
claim in part on the ground that the NEFR label was based on Respondents’ charge
against Petitioner for misconduct “demonstrating unfitness for employment”. (A14).
As argued in the following, the Respondents’ charge of NEFR and/or misconduct

18
against Petitioner is not only false but also insinuates moral turpitude and
professional incompetence.
First, there is compelling evidence that Respondents made a false statement
by labeling Petitioner as NEFR. Texas Tech University System Regulation 01.09
(the Regulation), which was published openly on the university system’s website,
set forth the criteria for NEFR:
“i. the individual engaged in behavior that constitutes serious
misconduct including but not limited to fraud, theft, violence/threat of
violence, alcohol/drug policy violation, moral turpitude, sexual
misconduct, or other conduct demonstrating unfitness for employment;
or ii. The individual has been involuntarily terminated two times or
more from the System within a five-year period.” (A52).
The Regulation also provided the procedure for making a NEFR designation:
“a. In accordance with University policy, the respective Human
Resources office will review the circumstances surrounding the
termination and, based on the criteria in Section 2 of this regulation,
determine whether an individual should be submitted for NEFR
consideration, b. A designation of NEFR, including the effective time
period, will be made on a case-by-case basis in consultation with the
respective director of Human Resources, respective president or
designee, the Office of General Counsel, and the Office of Equal
Opportunity, c. Human Resources will document the former employee’s
name, ID number, social security number, date of birth, institution,
department, date of termination, reason for ineligibility, and time
period of NEFR designation.” (A56).
According to these policy and/or procedure, Petitioner had never been designated as
NEFR by the proper authorities of the university.

In fact, Salcido the head of

Human Resources, which was charged by the Regulation to document and send
notice of NEFR to the designated employee, testified that Petitioner had never been
designated as NEFR. (A56).

Therefore, Rotwein and Ms. Court, who had no

19
authority to designate employee as NEFR, clearly made a false statement about
Petitioner when they described Petitioner as NEFR.
However, Respondents argued, that their NEFR statement was not false
because Petitioner was fired for “misconduct” “demonstrating unfitness for
employment”. Although this ostensible argument was adopted by the 5th Cir. Ct.,
(A14), it is misleading.

The university fired Petitioner for misconduct due to

violation of OP70.06, i.e., working from home without the president’s approval.
Even if arguendo this original charge of misconduct was serious enough for the
university to fire Petitioner from the job he had in 2017, the university clearly did
not consider it serious enough to permanently ban Petitioner from other future jobs
because it did not designate Petitioner as NEFR.

Thus, labeling Petitioner as

NEFR essentially elevated the seriousness of the Petitioner’s original misconduct to
a higher level, which Rotwein and Ms. Court were not authorized to do. Therefore
Rotwein and Ms. Court’s charge of NEFR and/or “misconduct” against Petitioner is
false, or at least the falsity of the charge is a factual issue that should be decided by
a jury. Reeves v. Sanderson Plumbing Prods, Inc., 530 US 133 (S. Ct. 2000).
The stigmatizing nature of the Respondents’ labeling of Petitioner as NEFR
is two fold. As shown in this case, it is the university’s practice to forward reference
check request to the department. However, the department, represented by Ms.
Court and Rotwein, has refused to heed Petitioner’s “Cease & Desist” request
regarding the NEFR label. Therefore, the department has described and likely will
continue to describe Petitioner as NEFR either without an explanation as they did

20

with the reference check company, or with an explanation that Petitioner
committed “misconduct” “demonstrating unfitness for employment”.

In the former

scenario where there is no explanation, the public or prospective employers would
construe the meaning of the NEFR label as that provided in the openly published
Regulation, which clearly insinuates moral turpitude. In fact, the reference check
company did indeed consider it as a negative statement, and recommended
Petitioner to request the “Cease & Desist”. (A31).
In the latter scenario where there is an explanation, the “misconduct”
insinuates professional incompetence, i.e., inability to follow employer’s policy.
However, since the “misconduct” has been falsely given the meaning of unfitness
for not just one previous job, but all future jobs in the Petitioner’s chosen
profession, it becomes a stigma that infringes liberty interest as defined in Paul,
supra.

This is because the Regulation protects the constitutional right of an

employee, even an involuntarily discharged employee, who is not designated as
NEFR by the proper authorities following the proper procedure, to seek re­
employment. This right of the Petitioner’s has been altered by the label of NEFR
and/or “misconduct”.
(2) Publication
The circuit courts are also divided in terms of what constitutes the
“publication” of a stigma, and there is even inconsistency on this issue in the same
circuit court. In some cases, the circuit courts require actual public dissemination of
the stigma directly by defendant, and reject self-publication triggered by plaintiffs

21
own actions such as job application as publication in the meaning of infringement
of liberty interest. (See for examples, Burton v. Town of Littleton, 426 F. 3d 9, 17, n9
(1st Cir. 2005); Olivieri v. Rodriguez, 122 F.3d 406 (7th Cir. 1997)).
In other cases, some circuits have determined that direct publication by
defendants is not necessary so long as the stigmatizing charges are likely to
become known to prospective employers, therefore consider publication in such
circumstances albeit triggered by a plaintiffs own action, which might be
considered as self-publication in other circuits, sufficient to satisfy the publication
requirement. Donato, supra, at 631; Sciolino v. City of Newport News, Va., 480 F. 3d
642, 649-50 (4th Cir. 2007)). In Sciolino, the 4th Cir. Ct. reasoned:
“the constitutional harm" is not the defamation" itself; rather it is "the
denial of a hearing at which the dismissed employee has an
opportunity to refute the public charge." If an allegation of actual
dissemination were required, the information would have already been
communicated to a potential employer, the employee's job
opportunities foreclosed, and his reputation damaged before any
possibility for a name-clearing hearing. Further, a requirement that an
employer need only provide a name-clearing hearing if it actually
disseminates the employee's personnel file to a specific prospective
employer would be virtually impossible to enforce. Most job applicants
will never know whether a prospective employer decides against hiring
them because of false damaging charges in a personnel file, or for other
reasons, and would not even know if the prospective employer has
learned of the charges. Therefore, a requirement that a plaintiff must
allege actual disclosure to a particular prospective employer would
undermine the liberties protected by the Fourteenth Amendment.” Id.,
(internal citations omitted).
“The very reason the Constitution requires procedural due
process is that the dynamic of a fair hearing often alters a
decisionmaker's determination.” “Indeed, we have held that it is not, as
a matter of law, impossible to prove that, had a due process hearing
been conducted, the result of the hearing would in fact have been

22

different.” Garcia v. Bd. of Ed. of Socorro Consol. Sch. Dist., Ill F. 2d
1403, 1418, n6 (10th Cir. 1985) (internal citation omitted).
Apart from the general principle of “likely to be published”, specific factors
have been considered to limit the meaning of self-publication even in circuits that
generally reject self-publication. For example, in the 7th circuit, a plaintiffs own
voluntary disclosure of stigma is considered as self-publication and not qualified as
publication for a due process claim. However, if a plaintiff is obliged to authorize
the disclosure by defendant, but does not make the disclosure himself, such
disclosure is not self-publication and satisfies the publication requirement for a due
process claim. Doe v. Purdue University, 928 F. 3d 652, 662 (7th Cir. 2019). The 7th
Cir. Ct. drew these distinctions from comparison of two of their cases:
“In contrast to Olivieri, where disclosure was voluntary and
speculative, it was compelled and certain in Dupuy. And in Dupuy,
unlike in Olivieri, the disclosure was not self-published—it came from
the defendant, even if the plaintiff had been obligated to authorize it.
So too here: Purdue, not John, revealed to the Navy that it had found
him guilty of sexual violence, and John had a legal obligation to
authorize the disclosure.” Id.
In this case, the 5th Cir. Ct. denied Petitioner’s due process claim in part on
the ground that it did not satisfy the publication element.

(A14-5). The

circumstance under which the NEFR stigma was published in this case was
analogous to that of job application.

After being discharged by the university,

Petitioner applied numerous jobs, but did not even receive any interview
invitations, whereas after he left his earlier job, he had a number of job interviews
and eventually found a job. Suspecting that his bad luck in finding a new job might

23

be caused by the university telling his prospective employers that he was fired for
misconduct, Petitioner hired the reference company A&T to do a reference check.
A&T in turn apparently hired CredentialVerificationService.com to conduct the
reference

check.

In

filling

out

the

reference

check

form

provided

by

CredentialVerificationService.com, Ms. Court stated that Petitioner was “not
eligible for rehire”.
Although Ms. Court made the disclosure to a reference check company
instead of a prospective employer, she or Rotwein would likely make the same
disclosure to a prospective employer. In this regard, it is important to point out
that reference check on behalf of prospective employers is a legitimate business of a
reference check company. In fact, when Ms. Court made the disclosure, she did not
know that the reference check was ordered by Petitioner.

(A53). Therefore, it is

logical to conclude that she believed that the reference company was making the
inquiry on behalf of a prospective employer. Second, as demonstrated in this very
incidence, it is the university’s practice to forward reference check inquiry to an
employee’s department. (A56). As already argued, Ms. Court and Rotwein refused
to consider Petitioner’s “Cease & Desist” request. Consequently they would likely
have described, and continue to describe Petitioner as NEFR to prospective
employers.
Nonetheless, the publication of the NEFR stigma in this case did not fit the
definition of self-publication as defined in Doe, supra.
made by Petitioner himself, nor was it voluntary.

The publication was not

When Petitioner hired the

24
reference check company, he wanted to find out whether the university would
disclose the misconduct in its original meaning to prospective employers. He did
not know that he was considered as NEFR by Rotwein and Ms. Court.

He

discovered the NEFR label only after he received the reference check report. (A301). Logically, if Petitioner did not even know of the stigma, he could not possibly
self publish it.

It must also be noticed that Petitioner did not hire

CredentialVerificationService.com, to which Ms. Court made the NEFR disclosure.
(A53).
Thus, the NEFR designation of Petitioner is both false and stigmatizing. It
likely has been, and will continue to be, disclosed to prospective employers and the
public.

The Respondents’ disclosure of it to a reference check company was not

Petitioner’s self-publication.
CONCLUSION
For the foregoing reasons, this case is a suitable vehicle for the Court to
resolve

the

inconsistencies

of legal

standards

for

claims

of employment

discrimination arisen from disparate treatments of employees for alleged policy
violations, and for due process claims of liberty violation in terms of how to define
stigma and its publication.

As such, Petitioner respectfully requests that his

petition for writ of certiorari be granted.

Respectfully submitted,

25

WEI-PING ZENG
3128 Ferguson Road
Huntington, WV 25705
Telephone: (304) 942 8606
Email: weipingzengnv@gmail.com
PRO SE PETITIONER

